                                                                       Office ofInspector General
                                                                        Office of Audit Services
                                                                               REGION IV
      DEPARTMENT OF HEALTH AND HUMAN SERVICES                      61 Forsyth Street, S.W., Suite 3T41
                                                                      Atlanta, Georgia 30303-8909

                                                                        Memorandum
                                        SEP 1 8 2008



To:          Nanette Foster Reilly
             Consortium Administrator
             Centers for Medicare & Medicaid Services


From:        Peter J. Barbera     c?~ ~           cE ~
             Regional Inspector General
              for Audit Services


Subject:     Review of Comprehensive Outpatient Rehabilitation Facility Therapy Services
             Provided by Ultimate Rehabilitation Agency, Inc. (A-04-05-02009)


The attached final report provides the results of our review of the comprehensive outpatient
rehabilitation facility (CORF) therapy services provided by Ultimate Rehabilitation Agency,
Inc. (Ultimate).

CORF facilities provide outpatient diagnostic, therapeutic, and restorative services for the
rehabilitation of injured, disabled, or sick persons. Ultimate was a CORF located in Miami,
Florida, which received $2,502,269 for 4,838 claims for physical and occupational therapy
services provided during calendar year (CY) 2003.

The objective of our review was to determine whether payments to Ultimate for physical
and occupational therapy services provided during CY 2003 were in accordance with
Medicare reimbursement requirements. From a sample of 100 claims for 2,576 services,
medical reviewers identified 98 claims for 1,400 services totaling $32,227 that did not meet
Medicare reimbursement requirements, including:

      •   1,189 services totaling $27,527 that did not meet requirements for reporting service
          units,

      •   151 services totaling $3,296 that did not meet documentation requirements, and

      •   60 services totaling $1,404 that were not medically necessary..

Based on our sample results, we estimated that for CY 2003, Ultimate received $1,400,062
for therapy services that did not meet Medicare reimbursement requirements.
Page 2 - Nanette Foster Reilly

We recommended that Ultimate refund to the Medicare program the estimated $1,400,062 in
unallowable payments for CY 2003.

In response to our draft report, we learned that Ultimate closed operations. An authorized
representative of the former company indicated the facility will not be contesting or
responding to the report of findings, as the facility is no longer in existence. Therefore, for
the record and your future use, we are sending this final report to you.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, Office of Inspector General reports generally are made available to
the public to the extent the information is not subject to exemptions in the Act (45 CFR part
5). Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staffmay contact Andrew A. Funtal, Audit Manager at (404) 562 -7762 or through e-
mail at Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-05-02009 in all
correspondence.
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF COMPREHENSIVE
OUTPATIENT REHABILITATION
 FACILITY THERAPY SERVICES
   PROVIDED BY ULTIMATE
REHABILITATION AGENCY, INC.




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                     A-04-05-02009
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OlG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (Ol) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops" and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Comprehensive outpatient rehabilitation facilities (CORF) provide outpatient diagnostic,
therapeutic, and restorative services for the rehabilitation of injured, disabled, or sick persons.
Sections 4523(d) and 4541 of the Balanced Budget Act of 1997 amended the Social Security Act
to require that payment for hospital outpatient services, including CORF services, be made under
a prospective payment system.

Ultimate Rehabilitation Agency, Inc. (Ultimate), was a CORF located in Miami, Florida.
Ultimate received $2,502,269 for 4,838 claims for physical and occupational therapy services
provided during calendar year (CY) 2003. With the assistance of a program safeguard
contractor, we reviewed a random sample of 100 of these claims. Each claim included multiple
therapy services.

OBJECTIVE

Our objective was to determine whether payments to Ultimate for physical and occupational
therapy services provided during CY 2003 were in accordance with Medicare reimbursement
requirements.

SUMMARY OF FINDINGS

From our sample of 100 claims for 2,576 services, medical reviewers identified 98 claims for
1,400 services totaling $32,227 that did not meet Medicare reimbursement requirements,
including:

   •    1,189 services totaling $27,527 that did not meet requirements for reporting service
        units,

   •    151 services totaling $3,296 that did not meet documentation requirements, and

    •   60 services totaling $1,404 that were not medically necessary.

Based on our sample results, we estimated that for CY 2003, Ultimate received $1,400,062 for
therapy services that did not meet Medicare reimbursement requirements.

Ultimate's policies and procedures did not address Medicare requirements for reporting service
units. In addition, Ultimate did not always follow its policies and procedures for ensuring that
therapy services were adequately documented and provided in accordance with Medicare
reimbursement requirements.                                                 "
RECOMMENDATIONS

We recommend that Ultimate refund to the Medicare program the estimated $1,400,062 in
unallowable payments for CY 2003.

Ultimate Rehabilitation Agency, Inc. Comments and Office of Inspector General
Response

Ultimate closed operations in 2006. An authorized representative of the former company
indicated that it would not be contesting or responding to the report of findings because the entity
is no longer in existence. For this reason, we are making no procedural recommendations.




                                                 11
                                TABLE OF CONTENTS

                                                         Page
INTRODUCTION                                               1

  BACKGROUND                                               1
    Comprehensive Outpatient Rehabilitation Facilities     1
    Fiscal Intermediaries                                  1
    Program Safeguard Contractors                          1
    Ultimate Rehabilitation Agency, Inc                    1

  OBJECTIVE, SCOPE, AND METHODOLOGY                        .2
    Objective                                               2
    Scope                                                   2
    Methodology                                             2

FINDINGS AND RECOMMENDATIONS                               3

  SERVICES THAT DID NOT MEET MEDICARE REQUIREMENTS         3
    Service Units Reported                                 3
    Documentation                                          4
    Medical Necessity                                      5

  POLICIES AND PROCEDURES NOT FOLLOWED                     6

  UNALLOWABLE PAYMENTS                                     6

  RECOMMENDATIONS                                          6

  ULTIMATE REHABILITATION AGENCY, INC. COMMENTS AND
  OFFICE OF INSPECTOR GENERAL RESPONSE                     6

APPENDIXES

  A - SAMPLING METHODOLOGY

  B - SAMPLE RESULTS AND ESTIMATES




                                            111
                                        INTRODUCTION

BACKGROUND

Comprehensive Outpatient Rehabilitation Facilities

Comprehensive outpatient rehabilitation facilities (CORP) provide outpatient diagnostic,
therapeutic, and restorative services for the rehabilitation of injured, disabled, or sick persons.
Pursuant to section 1861(cc)(2)(B) of the Social Security Act (the Act), Medicare-certified
CORPs must provide physician services, physical therapy, and social or psychological services.
Medicare also covers occupational and speech-language pathology services provided by CORPs
(section 1861(cc)(1)(B) of the Act).

Sections 4523(d) and 4541 ofthe Balanced Budget Act (BBA) of 1997 required the Centers for
Medicare & Medicaid Services (CMS) to implement a prospective payment system for hospital
outpatient services, including CORP services. Accordingly, CMS implemented a prospective
payment system for CORP services furnished on or after January 1, 1999. The BBA also added
section 1834(k) to the Act, requiring all CORP services to be paid at 80 percent of the lesser of
the actual charge for the service or the applicable fee schedule amount. Section 1834(k)(3) of
the Act defines the applicable fee schedule amount as "... the amount determined under the fee
schedule established under section 1848 [i.e., the physician fee schedule] ...."

Fiscal Intermediaries

CORPs generally receive payments for covered services furnished to Medicare beneficiaries
through fiscal intermediaries under contract with CMS. Federal regulations specify that the
intermediaries' functions include processing claims, assisting in the application of safeguards
against unnecessary utilization of services, conducting provider audits, resolving provider
disputes, and reconsidering payment denial determinations (42 CFR § 421.100).

Program Safeguard Contractors

CMS contracts with program safeguard contractors (PSC) to perform medical review functions,
including analyzing data, writing local coverage determinations, reviewing claims, and educating
providers.

Ultimate Rehabilitation Agency, Inc.

Ultimate Rehabilitation Agency, Inc. (Ultimate), formerly located in Miami, Florida, became a
Medicare-certified CORP in January 1999. The fiscal intermediary for Ultimate was First Coast
Service Options, Inc., located in Jacksonville, Florida.




                                                  1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments to Ultimate for physical and occupational
therapy services provided during calendar year (CY) 2003 were in accordance with Medicare
reimbursement requirements.

Scope

Our review covered physical and occupational therapy services provided in CY 2003, for which
Ultimate received Medicare payments of$2,502,269 for 4,838 claims.

Although we did not perform detailed tests ofintemal controls, we reviewed Ultimate's written
policies and procedures relating to the documentation and submission of claims for CORF
therapy services.

We contracted with the PSC, Electronic Data Systems, to perform medical reviews. The purpose
of the medical reviews was to determine whether the CORF services that Ultimate claimed were
reasonable, medically necessary, supported by adequate documentation, and correctly coded and
reimbursed. In addition, the PSC was to determine and explain the reason for any
inappropriately paid claims.

We conducted fieldwork at Ultimate in Miami, Florida.

Methodology

To accomplish our objective, we:

   •    reviewed applicable laws, regulations, and Medicare guidance for CORF therapy
        services;

   •    used CMS's Data Extract System user interface to retrieve all Ultimate claim information
        related to physical and occupational therapy services for the audit period;

   •    selected a random sample of 100 paid claims containing 2,576 services totaling $52,987
        (Appendix A);

   •    contracted with the PSC to review all medical and billing records for the sampled claims
        to determine whether Ultimate's CORF services met Medicare reimbursement
        requirements;

   •    worked with PSC staff to develop a payment error matrix that defined all the error codes;

   •    obtained supporting medical and billing records from Ultimate for each sampled claim;


                                                2
   •   reviewed Ultimate's policies and procedures manual to determine whether policies
       existed to prevent the errors that the medical reviewers identified;

   •   reviewed the PSC's medical review determinations; and

   •   estimated overpayments to Ultimate (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

From our sample of 100 claims for 2,576 services, medical reviewers identified 98 claims for
1,400 services totaling $32,227 that did not meet Medicare reimbursement requirements,
including:

   •   1,189 services totaling $27,527 that did not meet requirements for reporting service
       units,

   •   151 services totaling $3,296 that did not meet documentation requirements, and

   •   60 services totaling $1,404 that were not medically necessary.

Based on our sample results, we estimated that for CY 2003, Ultimate received $1,400,062 for
therapy services that did not meet Medicare reimbursement requirements.

Ultimate's policies and procedures did not address Medicare requirements for reporting service
units. In addition, Ultimate did not always follow its policies and procedures for ensuring that
therapy services were adequately documented and provided in accordance with Medicare
reimbursement requirements.

SERVICES THAT DID NOT MEET MEDICARE REQUIREMENTS

Medicare requirements specify that CORF services must meet requirements for reporting service
units, be adequately documented, and be medically necessary. Medical reviewers determined
that 98 claims for 1,400 physical and occupational therapy services totaling $32,227 did not meet
Medicare requirements.

Service Units Reported

Section 1833(e) of the Act precludes payments to any service provider unless the provider has
furnished information necessary to determine the amounts due such provider. Pursuant to
Federal requirements, providers must report therapy services using the Healthcare Common
Procedure Coding System (HCPCS)/Current Procedural Terminology (CPT) codes and the



                                                3
appropriate number of units of service. l Providers must determine the appropriate number of
units based on the total treatment time and CMS-designated treatment intervals. Specifically,
Medicare guidance provides that:

        For any single CPT code, providers bill a single 15-minute unit for treatment
        greater than or equal to 8 minutes and less than 23 minutes. If the duration of a
        single modality or procedure is greater than or equal to 23 minutes to less than
        38 minutes, then 2 units should be billed....

        . . . Providers should not bill for services performed for [less than] 8 minutes....

        The beginning and ending time of the treatment should be recorded in the
        patient's medical record along with the note describing the treatment. The time
        spent delivering each service, described by a time code, should be recorded. (The
        length of the treatment to the minute could be recorded instead.) ["Medicare
        Intermediary Manual," Pub. No. 13, part 3, section 3653(1).]

Ultimate claimed $27,527 for 1,189 therapy services that did not comply with Medicare
requirements for reporting service units. For 914 of these services, Ultimate did not document
the number of units billed by recording either the beginning and ending times or the length of
time to the minute. For 166 services, Ultimate billed for single units that were less than
8 minutes in duration. In addition, for 109 services, Ultimate billed for more units of direct
contact therapy than were documented in the records. For example, in one case, Ultimate billed
for two· units of service, which require a minimum of 23 minutes of direct contact. However,
Ultimate's records documented only 12 minutes of direct contact.

Documentation

Medicare requirements pertaining to documentation of CORF services include the following:

    •   Pursuant to Federal regulations (42 CFR § 485.60), documentation on each patient must
        be consolidated into one clinical record that must contain progress notes or other
        documentation that reflects the patient's reaction to treatment, tests, or injury or the
        need to change the established plan of treatment. Medicare guidance states: "Progress
        notes are to be maintained in the patient's record .... Progress notes must contain
        necessary and sufficient information, which indicates the services were actually
        provided and were reasonable and necessary to treat the patient's condition" (Local
        Coverage Determination for Therapy Rehabilitation Services (Ll125))?



lSection 1834(k)(5) of the Social Security Act, 42 U.S.C. § 1395m(k)(5) (requiring all claims for outpatient
rehabilitation therapy services and CORF services to be reported using a uniform coding system specified by the
Secretary); Program Memorandum, HCFA Pub. 60A, Transmittal No. A-98-8, dated March 1, 1998 (specifying
HCPCS/CPT codes as the uniform coding system). See also "Medicare Intermediary Manual," Pub. No. 13, part 3,
section 3653(1).

2We used Medicare guidance that was current during CY 2003, our audit period.



                                                       4
    •   Pursuant to 42 CFR § 410.105, services must be furnished under a written plan of
        treatment, and the plan must be reviewed at least once every 60 days by a facility
        physician. 3 Medicare guidance states: "Therapy services must relate directly and
        specifically to a written treatment plan. The plan [(also known as a plan of care or plan
        of treatment)] must be established before treatment is begun" (Local Coverage
        Determination for Therapy and Rehabilitation Services (L6196)).

    •   Medicare guidance states: "The plan of treatment must be reviewed by the CORF
        physician at least once every 60 days" ("Medicare Outpatient Physical Therapy/CORF
        Manual," Pub. No.9, Chapter II, section 252(E)).

    •   Pursuant to 42 CFR § 424.11, the provider must obtain the required certification and
        recertification statements. Medicare guidance states: "Obtain the recertification at the
        time the plan oftreatment is reviewed since the same interval (at least once every 60
        days) is required for the review of the plan. Recertifications are signed by the physician
        who reviews the plan of treatment" ("Medicare Outpatient Physical Therapy/CORF
        Manual," Pub. No.9, Chapter II, section 252(F)(2)).

Ultimate claimed $3,296 for 151 therapy services that did not have supporting documentation.
For 110 of these services, there were no progress notes, written plan of treatment, or
recertification. In addition, for 41 services, there was no documentation indicating that services
were provided. For example, there was no documentation in the progress notes to indicate that
therapy services were performed on the dates billed.

Medical Necessity

Sections 1862(a)(1)(A) and 1833(e) of the Social Security Act provide that Medicare pays for
services only if they are medically necessary and supported by documentation. Medicare
guidance states: "When the patient has reached a point where no further progress is being
made toward one or more of the goals, Medicare coverage ends for that aspect of the plan of
treatment" ("Medicare Outpatient Physical Therapy/CORF Manual," Pub. No.9, Chapter II,
section 252(E)).

Ultimate claimed $1,404 for 60 therapy services that were not medically necessary because the
services were provided after the patients had met their rehabilitation goals. For example,
although a discharge summary indicating that the patient had met his or her goals was dated
October 25,2003, Ultimate continued to bill for services beyond that date. Medical reviewers
determined that these additional services did not meet medical necessity requirements. In
another case, Ultimate documented that a patient had met his or her goals as stated in the plan of
care for home management training (i.e., meal preparation, laundry, and bed making) and
activities of daily living, such as eating, grooming, personal hygiene, dressing, and bathing.
However, Ultimate continued to bill for services after the patient had met home management and
self-care goals.


3CMS amended 42 CFR § 410.105 in 2007, effective January 1,2008 (72 Fed. Reg. 66222,66400 (Nov. 27, 2007»
requiring the plan of treatment to be reviewed at least every 90 days. We used regulations that were in effect during
CY 2003, our audit period, instead of the later version.



                                                          5
POLICIES AND PROCEDURES NOT FOLLOWED

Ultimate did not always follow Medicare requirements or its own policies and procedures, and
Ultimate's policies and procedures did not address Medicare requirements for reporting service
units. IfUltimate had followed its policies and procedures for ensuring that therapy services
were adequately documented and that Medicare coverage was terminated when patients reached
their rehabilitation goals, it would have prevented some of the errors identified.

UNALLOWABLE PAYMENTS

Ultimate received $32,227 in unallowable payments for therapy services in our sample that did
not meet Medicare reimbursement requirements. Based on our sample results, we estimated that
Ultimate received $1,400,062 for services provided during CY 2003 that did not meet Medicare
reimbursement requirements. (See Appendix R)

RECOMMENDATIONS

We recommend that Ultimate refund to the Medicare program the estimated $1,400,062 in
unallowable payments for CY 2003.

ULTIMATE REHABILITATION AGENCY, INC. COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

Ultimate closed operations in 2006. An authorized representative of the former company
indicated that it would not be contesting or responding to the report of findings because the entity
is no longer in existence. For this reason, we are making no procedural recommendations.




                                                 6
APPENDIXES
                                                                                  APPENDIX A


                               SAMPLING METHODOLOGY

OBJECTIVE

Our objective was to detennine whether payments to Ultimate Rehabilitation Agency, Inc.
(Ultimate), for physical and occupational therapy services provided during calendar year (CY)
2003 were in accordance with Medicare reimbursement requirements.

POPULATION

The population consisted of 4,838 paid claims for physical and occupational therapy services
provided in CY 2003, representing $2,502,269 in Medicare payments to Ultimate.

SAMPLING UNIT

The sampling unit was a paid claim for a Medicare beneficiary. A paid claim consisted of
multiple units of therapy services claimed by Ultimate for the period covered by the claim.

SAMPLING DESIGN

We used an unrestricted random sample.
SAMPLE SIZE

The sample consisted of 100 claims, which contained 2,576 therapy services.
ESTIMATION METHODOLOGY

Using the Office ofInspector General, Office of Audit Services statistical software, we estimated
the unallowable payments for physical and occupational therapy services that Ultimate provided
during CY 2003.
                                                                       APPENDIXB


                       SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                     No. of
             Sample                Value of        Unallowable     Unallowable
              Size                 Sample            Claims         Payments

                 100               $52,987            98            $32,227

ESTIMATES OF UNALLOWABLE PAYMENTS

                 Point estimate:                      $1,559,148

                 90-percent confidence interval:

                                   Lower limit        $1,400,062

                                   Upper limit        $1,718,235
